              The Program to Determine Worker Status for
              Federal Tax Purposes Needs Expanded Goals
                  and Increased Operational Oversight

                                    March 2004

                       Reference Number: 2004-30-055




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                     DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                            March 5, 2004



       MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                      DIVISION


       FROM:                  Gordon C. Milbourn III
                              Acting Deputy Inspector General for Audit

       SUBJECT:               Final Audit Report - The Program to Determine Worker Status for
                              Federal Tax Purposes Needs Expanded Goals and Increased
                              Operational Oversight (Audit # 200330020)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       program that makes determinations of workers’ employment tax status as employees or
       independent contractors. The overall objective of this review was to determine the
       effectiveness of the program in achieving its objectives in support of the IRS’
       compliance mission.
       A Determination of Worker Status for Purposes of Federal Employment Taxes and
       Income Tax Withholding (Form SS-8) is used by a business or worker to request a
       determination regarding a worker’s employment tax status as an employee or
       independent contractor. This worker status determination has important tax
       consequences to both parties. Once a Form SS-8 is processed, a determination letter
       along with filing instructions is sent to the responsible party.
       The SS-8 Program addresses compliance problems that relate to employment taxes.
       Situations with high indications of examination potential or possible fraud should be
       referred to the Examination or Criminal Investigation function, respectively.
       Examination function personnel involved in employment tax examinations may also
       make worker status determinations.
       Prior to 1996, the SS-8 Program was decentralized across the country. In 1996, the
       SS-8 Program was centralized in two sites – Newport, Vermont, and Austin, Texas.
       In January 2003, the Program was moved from its Austin, Texas, site to
       Brookhaven, New York.
                                            2


In summary, management and internal controls were adequate to ensure the timely and
accurate processing of Forms SS-8. Management performed reviews of worker status
determinations made to evaluate the effectiveness of individual tax examiners. The
Senior Program Analyst representing the National Headquarters Office of Employment
Tax maintained contact with onsite managers to identify and resolve problems. This
included developing and applying examination referral criteria, resolving technical
issues, working toward the development of Internal Revenue Manual procedures, and
developing program report schedules.
However, the effectiveness of the SS-8 Program could not be readily determined, as its
objectives did not include ensuring filing and payment compliance with worker status
determinations made. There were no follow-up procedures to identify noncompliance
with status determinations made and to actively encourage compliance. Also, there
was no performance measure to quantify the compliance effect achieved by the SS-8
Program.
Continuing to operate the SS-8 Program in two locations has left two issues unresolved.
First, the processing sites have dissimilar organizational and reporting structures that,
without sufficient operational oversight, may result in inconsistent treatment of
taxpayers. Second, the Brookhaven site has experienced constant delays during
remote access of the case-processing database maintained in Newport, Vermont.
The SS-8 Program does not maintain a database of closed worker status
determinations that SS-8 Program tax examiners and field Examination function
personnel can readily research to help ensure the consistency of their determination
decisions. Presently, the closed case information is available on the SS-8 Program
case-processing database; however, the services of a computer programmer are
required to retrieve the information. Also, while quality review guidelines had been
developed to review worker status determinations, the reviews were not being
performed.
We recommended the Director, Compliance, Small Business/Self-Employed Division,
expand the objectives of the SS-8 Program to ensure compliance with tax laws in all
cases in which worker status determinations have been made and establish a
performance measure to enable management to determine Program effectiveness in
terms of compliance achieved. The Director should also increase the Headquarters’
oversight resources dedicated to the SS-8 Program, establish one operational position
to oversee the application of operational policy for both processing site locations, or
establish an operational policy oversight group for the SS-8 Program to meet
periodically to discuss and resolve all issues affecting the consistency of worker status
determinations. Finally, the Director should work with the Modernization and
Information Technology Services (MITS) organization to resolve the problem of remote
access delays, establish and include a readily researchable source of all closed worker
status determinations for use by both field Examination function personnel and
SS-8 Program personnel during the development of the web-based database design,
and implement an independent system of quality review for all worker status
determinations made.
                                          3



Management’s Response: IRS management agreed with the findings and
recommendations made in this report. They are looking at various options to perform
follow-up research on employers that appear not to have complied with the
determination and will develop performance measures to quantify the results of that
research. Also, management has assigned a second Headquarters Employment Tax
Senior Program Analyst to the SS-8 Program and has established an operational policy
oversight group. A team of MITS organization employees is currently analyzing the
causes of remote access delays and will make recommendations for needed hardware.
In addition, IRS management will implement a procedure to include field Examination
function worker status determinations in the Form SS-8 processing site database and
will update a computer programming request that will enable research of worker status
determinations. Lastly, consistent quality review procedures will be developed to
assure that both Form SS-8 processing sites are using the same criteria.
Management’s complete response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers who are affected by the
report recommendations. Please contact me at (202) 622-6510 if you have questions or
Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (631) 654-6028.
  The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                     Goals and Increased Operational Oversight




                                                  Table of Contents


Background ............................................................................................... Page 1
Management and Internal Controls Were Adequate and Effective ............ Page 2
The SS-8 Program Objectives Do Not Include Ensuring Compliance
With the Worker Status Determinations..................................................... Page 3
         Recommendation 1: ...................................................................... Page 4

Performance Measures Are Needed to Allow Management to Assess
the SS-8 Program’s Effectiveness ............................................................. Page 4
         Recommendation 2: ...................................................................... Page 5

The Decision Not to Centralize the SS-8 Program Into One Site Has
Left Two Issues Unresolved ...................................................................... Page 6
         Recommendations 3 through 5: .................................................... Page 9

Readily Researchable Records of Closed Worker Status
Determinations Are Needed ...................................................................... Page 10
         Recommendation 6: ...................................................................... Page 11

Quality Review Procedures Have Not Been Implemented ........................ Page 11
         Recommendation 7: ...................................................................... Page 12

Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 13
Appendix II – Major Contributors to This Report........................................ Page 15
Appendix III – Report Distribution List ....................................................... Page 16
Appendix IV – Management’s Response to the Draft Report .................... Page 17
   The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                      Goals and Increased Operational Oversight

                                Businesses with employees are generally required to
Background
                                withhold income, Social Security, Medicare, and
                                unemployment taxes from their employees’ wages and remit
                                amounts withheld to the Internal Revenue Service (IRS).
                                These businesses are required to match the amounts they
                                withhold from their employees for these various taxes and
                                pay the matching amounts (called “employment taxes”).
                                Businesses are not required to withhold or pay employment
                                taxes on amounts paid to workers that are not their
                                employees.
                                Laws defining who is and who is not considered an
                                “employee” of a business are confusing to both businesses
                                and workers. A Determination of Worker Status for
                                Purposes of Federal Employment Taxes and Income Tax
                                Withholding (Form SS-8) is used by a business or worker to
                                request a determination regarding a worker’s Federal
                                Government employment tax status as an employee or
                                independent contractor. The information on the Form SS-8
                                is reviewed by a tax examiner in the SS-8 Program, and a
                                determination is made based upon the common law relating
                                to employment relationships. Field Examination function
                                personnel may also make a determination during an
                                employment tax examination. Revenue Procedure 2003-11
                                provides procedures for issuing a determination letter, along
                                with filing instructions, to the responsible party.
                                The Forms SS-8 are also a potential source of leads for
                                employment tax examinations and criminal investigations.
                                After completing all actions related to determining worker
                                status, tax examiners evaluate the Forms SS-8 to determine
                                whether they meet examination or fraud criteria and make
                                the appropriate referrals.
                                Prior to 1996, the SS-8 Program was decentralized across
                                the country. In 1996, the SS-8 Program was centralized in
                                two sites – Newport, Vermont, and Austin, Texas. In
                                January 2003, the Program was moved from its
                                Austin, Texas, site to Brookhaven, New York.




                                1
                                    Dated January 6, 2003.
                                                                                      Page 1
     The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                        Goals and Increased Operational Oversight

                                  We recently conducted an audit in the area of employment
                                  tax and, in January 2003, issued a report2 that included a
                                  look at businesses that misclassify their workers as
                                  nonemployees when they should have been classified as
                                  employees. These businesses can be liable for significant
                                  amounts of back taxes as a result of misclassifications.
                                  This review was performed at the Small Business/
                                  Self-Employed (SB/SE) Division National Headquarters
                                  in New Carrollton, Maryland, and Washington, D.C.,
                                  and at the Form SS-8 processing sites located in
                                  Brookhaven, New York, and Newport, Vermont, from
                                  June through November 2003. The audit was conducted in
                                  accordance with Government Auditing Standards. Detailed
                                  information on our audit objective, scope, and methodology
                                  is presented in Appendix I. Major contributors to the report
                                  are listed in Appendix II.
                                  Management and internal controls were adequate and
Management and Internal
                                  effective to ensure both timely processing of Forms SS-8
Controls Were Adequate and
                                  and employee competency. The average time for the
Effective
                                  Newport and Brookhaven sites to process a Form SS-8 was
                                  146 days during Fiscal Year (FY) 2003, well within the
                                  180 days allotted to process these Forms. Management
                                  reviews were performed, for evaluative purposes, to ensure
                                  employee competency to make accurate worker status
                                  determinations.
                                  In FY 2003, the 3 sites, including the discontinued Austin
                                  site, made 5,960 worker status determinations. The
                                  Brookhaven and Newport processing sites made 3,377 of
                                  these decisions. The businesses and workers accepted the
                                  decisions in 3,148 (93 percent) of the 3,377 determinations
                                  made. Requests for reconsiderations3 occurred in only
                                  229 (7 percent) of the total determinations, and only
                                  14 (0.4 percent of 3,377) determinations were reversed
                                  during reconsideration.



                                  2
                                    The Internal Revenue Service Needs to Be Consistent and Fair When
                                  Assessing Interest and Penalties on Employers Who Misclassify Their
                                  Employees (Reference Number 2003-30-042, dated January 2003).
                                  3
                                    Reconsideration requests occur when the business or worker disagrees
                                  with the determination made.
                                                                                                 Page 2
     The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                        Goals and Increased Operational Oversight

                                  While the SS-8 Program does not presently have operating
                                  procedures published in the Internal Revenue Manual
                                  (IRM), standard operating procedures are documented that
                                  detail all aspects of processing, including timeliness
                                  standards and referral procedures for employment tax cases
                                  with examination or fraud potential. Actions to convert the
                                  standard operating procedures to the IRM are in progress.
                                  The Newport processing site staff was instrumental in
                                  assisting the Brookhaven site in standing up. The sites now
                                  share an integrated case-processing system database that
                                  serves the Brookhaven site remotely as a database and
                                  online processing environment. Newport site personnel also
                                  provided adequate training to all Brookhaven site personnel.
                                  Review of receipts and closures at both sites indicate that
                                  the workload supports year-round staffing.
                                  To help ensure consistency in the application of compliance
                                  policy between processing sites, the National Headquarters
                                  Senior Program Analyst representing the Office of
                                  Employment Tax maintains contact with onsite managers to
                                  identify and resolve problems. This includes developing
                                  and applying examination referral criteria, resolving
                                  technical issues, working toward the development of IRM
                                  procedures, and developing program report schedules.
                                  Currently, the SS-8 Program objectives are limited to
The SS-8 Program Objectives Do
                                  making determinations as to a worker’s Federal Government
Not Include Ensuring Compliance
                                  employment tax status. The Program’s objectives do not
With the Worker Status
                                  include ensuring compliance with the determinations once
Determinations
                                  they are made.
                                  To meet the IRS’ overall compliance mission of helping
                                  taxpayers meet their tax responsibilities, the SS-8 Program
                                  objectives should include ensuring that taxpayers comply
                                  with the worker status determinations made and measuring
                                  the degree of voluntary compliance achieved.
                                  An SB/SE Division study of the SS-8 Program, released in
                                  January 2002, stated, “there is currently no system to ensure
                                  follow-up is performed to verify future compliance with the
                                  determination.” This study included a recommendation to
                                  add the responsibility for monitoring compliance with
                                  worker status determinations to the duties of the SS-8
                                  Program. According to SB/SE Division management, they

                                                                                        Page 3
     The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                        Goals and Increased Operational Oversight

                                  did not implement this recommendation because the move
                                  from Austin, Texas, to Brookhaven, New York, required all
                                  available resources during the yearlong transition.4
                                  Consequently, the IRS has no assurance that these taxpayers
                                  are meeting their tax responsibilities. The potential exists
                                  for filing and payment noncompliance and the loss of
                                  credibility with businesses and/or workers. Noncompliance
                                  with the IRS worker status determinations also prevents the
                                  SS-8 Program from achieving its larger mission of instilling
                                  the highest degree of public confidence in the tax system’s
                                  integrity, fairness, and efficiency.

                                  Recommendation

                                  1. The Director, Compliance, SB/SE Division, should
                                     expand the objectives of the SS-8 Program to ensure
                                     compliance with tax laws in all cases in which worker
                                     status determinations have been made. This may be
                                     accomplished through subsequent account research and
                                     reminder notices where necessary. Continued
                                     noncompliance should result in referrals to the
                                     Examination function.
                                  Management’s Response: The Director, Reporting
                                  Compliance, SB/SE Division, is looking at various options
                                  for conducting follow-up research on employers that appear
                                  not to have complied with the determination and will
                                  consider these alternatives as resources become available.
                                  Forms SS-8 meeting specific criteria are sent to field offices
Performance Measures Are
                                  to be further reviewed by the Examination or Criminal
Needed to Allow Management to
                                  Investigation function. However, after the cases are
Assess the SS-8 Program’s
                                  referred, the SS-8 Program receives no feedback to allow
Effectiveness
                                  for the measurement of Program accomplishment. Getting
                                  feedback and developing a performance measure would
                                  enable SS-8 Program management to evaluate their success
                                  and refine their criteria.
                                  In addition, should the SS-8 Program expand its mission to
                                  include ensuring compliance with worker status

                                  4
                                    The requirement to follow up to ensure compliance with IRS worker
                                  status determinations has been established as a priority in the SB/SE
                                  Division’s FY 2004 Employment Tax Plan.
                                                                                                  Page 4
The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                   Goals and Increased Operational Oversight

                             determinations, it would be beneficial to develop a
                             performance measure to quantify the level of compliance
                             achieved.
                             The Government Performance and Results Act of 1993
                             (GPRA)5 requires the use of performance measures.
                             Performance measures should be used to evaluate the
                             effectiveness of a program in meeting its objectives.
                             Management has not established a performance measure to
                             quantify the level of compliance with the determinations, in
                             part, because the SS-8 Program did not implement an
                             internal study recommendation from 2002 that suggested
                             ensuring compliance with its worker status determinations.
                             Because there was no requirement to measure business or
                             worker compliance with the worker status determinations,
                             there had been no need for a performance measure. In
                             addition, management has not established a performance
                             measure to evaluate the cases they refer to the Examination
                             and Criminal Investigation functions. As a result, there is
                             no way to evaluate the effectiveness of the services provided
                             by the SS-8 Program.

                             Recommendation

                             2. The Director, Compliance, SB/SE Division, should
                                establish a performance measure to enable management
                                to determine SS-8 Program effectiveness in terms of
                                compliance achieved. This performance measure would
                                require establishing follow-up procedures to identify and
                                measure compliance with the worker status
                                determinations made and soliciting results of referrals
                                made to the Examination and Criminal Investigation
                                functions.
                             Management’s Response: The Director, Reporting
                             Compliance, SB/SE Division, will develop performance
                             measures to quantify the results of the follow-up research
                             and establish baselines and performance goals.


                             5
                              Pub. L. No. 103-62, 107 Stat. 285 (codified as amended in scattered
                             sections of 5 U.S.C., 31 U.S.C., and 39 U.S.C.).


                                                                                            Page 5
     The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                        Goals and Increased Operational Oversight

                                  The SB/SE Division study of the SS-8 Program, released in
The Decision Not to Centralize
                                  January 2002, recommended all Form SS-8 work be
the SS-8 Program Into One Site
                                  consolidated to one site. The main reasons for consolidation
Has Left Two Issues Unresolved
                                  were to “enhance consistency, efficiency, and ease of
                                  management and control.”
                                  In June 2003, the Director of Compliance award was
                                  presented to the Newport, Vermont, SS-8 Unit in
                                  recognition of its dedicated efforts and outstanding
                                  accomplishments. The decision was made not to centralize
                                  to one site to retain the experience in the Newport site while
                                  preserving and using available resources in the Brookhaven
                                  site. As a result, some problems inherent in maintaining
                                  two sites have not been resolved.
                                  Inadequate operational oversight may result in
                                  inconsistent worker status determinations
                                  The two SS-8 Program processing sites presently have
                                  differing organizational structures, spans of managerial
                                  control, personnel grade series and levels, numbers of tax
                                  examiners and clerks to process similar volumes of
                                  Forms SS-8, and reporting requirements. For example,
                                  2 units exist at 1 site with the span of managerial control for
                                  those units at 14:1 (approximately 10 tax examiners and
                                  4 clerks in each unit). The other site has 1 unit with a span
                                  of 19:1 (17 tax examiners and 2 clerks). In addition, the
                                  technical employees at one site are grades General Schedule
                                  (GS)-6 and GS-7, while the other site’s technical employees
                                  are GS-7 through GS-9.6
                                  The 2002 SB/SE Division study stated, “the staffing
                                  configuration in the two sites, both in terms of grade
                                  structure and productivity, is inconsistent. This situation
                                  carries potential for conflict and must be resolved to reflect
                                  sound classification and position management practices.”
                                  We agree with the study’s assessment. In addition, the
                                  uniform application of operational policy is necessary to
                                  maintain consistency within the SS-8 Program. For
                                  example, differences in how the two sites handle technical
                                  and administrative issues within the Program, such as
                                  implementing new procedures, new laws, or new language

                                  6
                                      GS is one of two basic pay systems in the IRS.
                                                                                          Page 6
The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                   Goals and Increased Operational Oversight

                             in letters to businesses or workers, may make it more
                             difficult to oversee the Program. Consistency needs to be
                             maintained with regard to the following:
                                  •   Interpretation of law.
                                  •   Operational reviews to include technical and
                                      procedural features.
                                  •   Coordination of Continuing Professional
                                      Education requirements.
                                  •   Development of training manuals, cadre, and
                                      courses.
                                  •   Liaison with the Office of Chief Counsel and the
                                      Taxpayer Advocate Office and feedback to
                                      SS-8 Program processing site personnel.
                                  •   Coordination of the dissemination of operational
                                      information to the processing sites.
                                  •   Reviews of the effectiveness of referral issues.
                                  •   Establishment and refinement of performance
                                      measures.
                                  •   Maintenance of a balanced workload between
                                      processing sites.
                             The Office of Employment Tax develops and implements
                             policies and strategies for Employment Tax programs. This
                             is accomplished by providing program coordination and
                             oversight for all employment tax activities, ensuring
                             employment tax programs and policies are consistent,
                             formulating and revising policy and processes affecting
                             employment tax examination and compliance initiatives,
                             and developing policies and guidelines that apply to all
                             employment tax programs. The Senior Program Analyst for
                             the Office of Employment Tax is directly responsible for
                             oversight of the SS-8 Program, in addition to planning work
                             for the field Examination function personnel, monitoring the
                             results of that work, and providing liaison to the field.
                             The Senior Program Analyst devotes approximately
                             15 percent of his time to oversight of the SS-8 Program.
                             Initially, the Newport site had been steering the operating

                                                                                     Page 7
The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                   Goals and Increased Operational Oversight

                             policies while the Brookhaven site stood up. However, per
                             the Senior Program Analyst:
                                    The Office of Employment Tax does not have
                                    the resources to ensure detailed operational
                                    consistency between the two sites. Presently,
                                    day-to-day operational procedures are
                                    managed separately by management at the
                                    two sites. A single management structure
                                    would be able to provide consistency in
                                    day-to-day operations.
                             Without sufficient operational oversight, consistency
                             between sites may deteriorate as various issues are handled
                             differently. Differences in the handling of issues between
                             processing sites may result in inconsistent worker status
                             determinations and, ultimately, inequitable treatment of
                             taxpayers. In fact, the 2002 SB/SE Division study reported,
                             “there have been instances where the two sites have given
                             contrary opinions on comparable facts.”
                             The Brookhaven site is experiencing delays during
                             remote access of the case-processing database located in
                             Newport
                             The SS-8 Program case-processing database is maintained
                             in Newport. The SS-8 Program personnel in the
                             Brookhaven site routinely experience minutes-long response
                             times when accessing the case-processing database.
                             To meet the 180-day timeliness standard for Form SS-8
                             processing, it is important to have reasonable response times
                             to the remote case-processing database. Acceptable
                             computer response times should be measured in seconds,
                             not minutes.
                             In November 1998, a proposal was submitted to move from
                             the existing case-processing database structure to a
                             web-based design. This would provide instantaneous
                             application updates for all users, including remote users, and
                             decrease administrative costs. This proposal will be
                             implemented when computer resources become available.
                             Remote access delays in accessing and updating the
                             case-processing database are a constant source of frustration
                             for employees and reduce program efficiency.
                                                                                    Page 8
The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                   Goals and Increased Operational Oversight

                             Recommendations

                             The Director, Compliance, SB/SE Division, should:
                             3. Increase the National Headquarters Office of
                                Employment Tax resources dedicated to the SS-8
                                Program.
                             Management’s Response: A second Headquarters
                             Employment Tax Senior Program Analyst has been
                             assigned to the SS-8 Program.
                             4. Establish one operational position to oversee the
                                application of operational policy for both processing site
                                locations or establish an operational policy oversight
                                group for the SS-8 Program, consisting of the Senior
                                Program Analyst for the Office of Employment Tax and
                                managers from the Newport and Brookhaven processing
                                sites, to meet periodically to discuss and resolve all
                                issues affecting the consistency of worker status
                                determinations.
                             Management’s Response: An operational policy oversight
                             group has been established for the SS-8 Program.
                             5. Work with the Modernization and Information
                                Technology Services (MITS) organization to resolve the
                                problem of delays experienced by the Brookhaven site
                                during remote access of the Newport site database, as an
                                interim measure until the web-based design is
                                implemented.
                             Management’s Response: A team of MITS organization
                             employees led by the Customer Relationship Management
                             function within the End User Equipment and Services
                             function is currently analyzing the causes of remote access
                             delays and will make recommendations for needed
                             hardware. The approved hardware will be installed and
                             training will be provided to the system administrator.




                                                                                   Page 9
     The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                        Goals and Increased Operational Oversight

                                  Worker status determinations from employment tax field
Readily Researchable Records of
                                  examination results7 are not available for research by
Closed Worker Status
                                  SS-8 Program tax examiners or field Examination function
Determinations Are Needed
                                  personnel. In addition, no records of SS-8 Program worker
                                  status determinations are readily available for research by
                                  field Examination function personnel or SS-8 Program tax
                                  examiners. While the closed case information for the SS-8
                                  Program processing sites is available on the SS-8
                                  case-processing database, the services of a computer
                                  programmer are currently needed to retrieve the
                                  information. A readily researchable database of
                                  determination decisions is a necessary tool for SS-8
                                  Program tax examiners and field Examination function
                                  personnel to use to help ensure the consistency of future
                                  determinations.
                                  The Newport SS-8 Program site submitted a group
                                  suggestion in December 2000 to create an employment tax
                                  history on the Integrated Data Retrieval System8 to provide
                                  IRS-wide access to employment tax information including
                                  worker status determinations. This suggestion resulted in a
                                  monetary group award. However, the suggestion has not
                                  been implemented because of programming resource
                                  constraints.
                                  Inconsistent worker status determinations made on a
                                  case-by-case basis and between sites may result in
                                  inconsistent treatment of taxpayers. Further, it increases
                                  taxpayer burden when the IRS must have field Examination
                                  function personnel or SS-8 Program tax examiners rely on
                                  the worker or business to learn of previous worker status
                                  determinations made by the other group.
                                  Without the availability of researchable records of closed
                                  field Examination function personnel worker status
                                  determination decisions, the SS-8 Program Tax examiners
                                  may have to rely on the taxpayer to provide information on
                                  the results of any worker status determination resulting from
                                  an employment tax examination.

                                  7
                                    Field examiners involved in employment tax examinations may make
                                  worker status determinations in addition to those made in the
                                  SS-8 Program sites.
                                  8
                                    IRS computer system capable of retrieving or updating stored
                                  information; it works in conjunction with a taxpayer’s account records.
                                                                                                 Page 10
     The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                        Goals and Increased Operational Oversight

                                  Recommendation

                                  6. The Director, Compliance, SB/SE Division, should
                                     establish a readily researchable source of all closed
                                     worker status determinations made by both field
                                     Examination function personnel and SS-8 Program
                                     personnel and include it in the web-based database
                                     design being developed.
                                  Management’s Response: The Director, Reporting
                                  Compliance, SB/SE Division, will implement a procedure to
                                  include field Examination function worker status
                                  determinations in a Form SS-8 processing site database and
                                  update a computer programming request to include a change
                                  to allow for research of worker status determinations.
                                  At the time of our review, completed worker status
Quality Review Procedures Have
                                  determinations were not being subjected to an independent
Not Been Implemented
                                  quality review. Quality reviews should provide
                                  management with an independent assessment of the extent
                                  to which the organization complies with its standards,
                                  policies, and procedures. This assessment should provide
                                  valuable feedback to top management concerning both how
                                  well the organization achieves its quality goals and the
                                  consistency of worker status determinations between
                                  processing sites.
                                  There were quality review procedures specific to worker
                                  status determinations; however, the quality review position
                                  became vacant in the Newport site and was not restaffed,
                                  and a quality review position was not established at the
                                  Brookhaven site.
                                  As a result, inconsistent worker status determinations, on a
                                  case-by-case basis or between sites, may go unidentified.
                                  Also, management has one less technique available to
                                  monitor, measure, and improve the quality of work. Data
                                  cannot be accumulated to provide quality statistics and to
                                  identify trends, problem areas, training needs, and
                                  opportunities for process improvement.




                                                                                        Page 11
The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                   Goals and Increased Operational Oversight

                             Recommendation

                             7. The Director, Compliance, SB/SE Division, should
                                implement a system of quality review to help ensure
                                consistency among examiners and between processing
                                sites.
                             Management’s Response: The Director, Reporting
                             Compliance, SB/SE Division, will ensure that a consistent
                             quality review procedure will be developed to assure both
                             Form SS-8 processing sites are using the same criteria.




                                                                                Page 12
       The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                          Goals and Increased Operational Oversight

                                                                                     Appendix I


                        Detailed Objective, Scope, and Methodology

The overall objective was to determine the effectiveness of the SS-8 Program in achieving its
objectives in support of the Internal Revenue Service’s compliance mission. To achieve our
objective, we:
I.        Determined whether SS-8 Program objectives were proper, suitable, and relevant to the
          compliance mission.
          A. Obtained and evaluated the program objectives of the SS-8 Program.
          B. Interviewed National Headquarters and local management to determine how
             effectively the SS-8 Program objectives supported the compliance mission.
II.       Determined whether goals for the SS-8 Program were established and achieved.
          A. Interviewed National Headquarters and local management to determine whether goals
             had been established and desired results or benefits achieved.
          B. Interviewed National Headquarters and local management to identify existing
             performance measures and evaluated the effectiveness of these performance
             measures.
          C. Interviewed management, reviewed Internal Revenue Manual documentation, and
             reviewed local desk procedures to determine whether referral procedures existed to
             direct the referral of employment tax cases with examination or fraud potential.
III.      Determined whether management systems for measuring effectiveness were adequate to
          meet goals and objectives.
          A. Reviewed management and internal controls and determined whether Determinations
             of Worker Status for Purposes of Federal Employment Taxes and Income Tax
             Withholding (Form SS-8) were processed timely, accurately, and consistently.
             1. Reviewed desk procedures and determined whether timeliness standards for the
                processing of Forms SS-8 were established and were reasonable. We reviewed
                closed case statistics and determined whether timeliness standards were met.
             2. Interviewed management and determined the extent of quality and management
                reviews performed to ensure the accuracy of the worker status determinations.
             3. Interviewed management to determine what controls existed to ensure consistency
                in worker status determinations made on a case-by-case basis as well as between
                the Form SS-8 processing sites. We ascertained whether management effectively
                maintained the results of prior worker status determinations for employee research
                purposes.
                                                                                           Page 13
  The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                     Goals and Increased Operational Oversight

      B. Reviewed management information systems reports and determined whether they
         provided sufficient information to allow National Headquarters and local
         management to effectively oversee the SS-8 Program.
      C. Interviewed National Headquarters and local management and determined whether
         the SS-8 Program included a follow-up feature to ensure all required income tax
         returns were filed and employment taxes were paid by the employer and/or the
         employee, as required, as a result of the worker status determinations made.
      D. Interviewed National Headquarters personnel responsible for the SS-8 Program and
         determined whether there was effective Program oversight for both compliance and
         operational policy.
IV.   Determined whether the SS-8 Program was using its resources effectively to achieve
      program objectives.
      A. Determined whether adequate training was provided to new employees at the
         Brookhaven processing site.
         1. Reviewed the training course syllabus and training materials and determined the
            extent of the training provided to trainees.
         2. Developed a questionnaire for recently trained examiners and clerks to obtain
            feedback and determined the effectiveness of the training.
      B. Reviewed reports of receipts and closures and determined whether the workload
         supports full staffing annually.




                                                                                      Page 14
   The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                      Goals and Increased Operational Oversight

                                                                                 Appendix II


                           Major Contributors to This Report

Richard J. Dagliolo, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle Andersen, Acting Director
Philip Shropshire, Director
Larry Madsen, Audit Manager
Bill R. Russell, Audit Manager
Margaret F. Filippelli, Senior Auditor
Daniel A. Zaloom, Senior Auditor
Stephen A. Wybaillie, Auditor




                                                                                       Page 15
  The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                     Goals and Increased Operational Oversight

                                                                         Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Acting Deputy Commissioner, Small Business/Self-Employed Division SE:S
Acting Director, Compliance SE: S:C
Acting Deputy Director, Compliance Field Operations SE:S:C:F
Deputy Director, Compliance Policy SE:S:C:CP
Deputy Director, Compliance Services SE:S:C:CS
Director, Reporting Compliance SE:S:C:CP:RC
Area Director of Compliance, Boston SE:S:C:F:1
Field Director, Compliance Services, Brookhaven SE:S:C:CS:B
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE




                                                                              Page 16
The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                   Goals and Increased Operational Oversight

                                                                   Appendix IV


                Management’s Response to the Draft Report




                                                                         Page 17
The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                   Goals and Increased Operational Oversight




                                                                         Page 18
The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                   Goals and Increased Operational Oversight




                                                                         Page 19
The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                   Goals and Increased Operational Oversight




                                                                         Page 20
The Program to Determine Worker Status for Federal Tax Purposes Needs Expanded
                   Goals and Increased Operational Oversight




                                                                         Page 21
